2303 South Center Road
Burton, MI 48519
Ph 810-715-3542 • TF 800-882-6457
Fx 810-600-2590
www.elgacu.com

Visa Credit Card
Application Disclosures
INTEREST RATES AND INTEREST CHARGES
Visa Rewards

Annual Percentage
Rate (APR) for
Purchases, Balance
Transfers and
Cash Advances

Visa Cashback

9.90 % - 17.90 % 14.90 % - 20.90 %
based on your
creditworthiness

Penalty APR

based on your
creditworthiness

17.90%

20.90%

Visa Low Rate

7.90 % - 15.90 %
based on your
creditworthiness
17.90%

When the Penalty
APR Applies

This APR may be applied to your account if you make a late payment.
How long with the Penalty APR apply? If your APR is increased due to a late
payment, the Penalty APR will apply until you make six consecutive minimum payments when they are due.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not
charge any interest on the portion of the purchases balance that you pay by the due
date each month. We will begin charging interest on cash advances and balance
transfers on the transaction date.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit
the website of the Consumer Financial Protection Bureau at:
http://www.consumerfinance.gov/learnmore.
6(59,&(&+$5*(S

Annual 6HUYLFH&KDUJH

None

Transaction 6HUYLFH
&KDUJHV

None
None
Up to 2% of the US dollar amount of the foreign transaction.
This fee applies to any credit card transaction made at a location in a foreign country, or payable to a merchant located in a foreign country even if you initiate the
transaction from within the United States.

• Cash Advance
• Balance Transfer
• Foreign Transaction

Penalty6HUYLFH&KDUJHs

Up to $25
None
$25

• Late Payment
• Over-the-Credit Limit
• Returned Payment
Other 6HUYLFH&KDUJHs:
Replacement Card
Rush Replacement Card
Rush Delivery of Card

$5
$10
$30

How We Will Calculate Your Balance: We use a method called “average daily balance” (including new purchases).

The above rates and fees are effective as oI0D\6

© 2021 Farleigh Wada Witt. All Rights Reserved.

CC App Disc • 04-30-21

